CAMPBELL LAW FIRM, P.A.

A PROFESSIONAL CORPORATION

H. GREGORY CAMPBELL*

greg@gcampbell-law.com 2100 RIVERDALE ROAD * SUITE 200B

LITTLE ROCK, ARKANSAS 72202
*Also Licensed in Texas (inactive) TELEPHONE: (501) 372-5659
FACSIMILE: (501) 374-8657
www.geampbell-law.com

April 6, 2020

Supreme Court of the United States
Clerk’s Office

One First Street, N.E.

Washington, D.C. 20543

RE: Extension of Time for Submitting Response to Petition for Writ of
Certiorari No. 19-1154; Robinson Nursing and Rehab. Center, LLC,
et al. v. Andrew Phillips, et al.

Dear Mr. Harris,

I represent the Respondent in the case referenced above. Pursuant to
Supreme Court Rule 30.4 and the Court’s March 19th Order, I am writing to
request an extension of time to respond to the Petition for Writ of Certiorari that
was docketed in this case on March 20, 2020.

In light of the difficulties and disruptions that have accompanied the public
health emergency caused by COVID-19, I am kindly requesting a 45-day extension
for our response so that we adequately may address the multiple questions
presented in the petition. This is our first request for an extension.

I have contacted counsel for the opposing party, and they have no objection
to this request. Opposing counsel is being copied on this letter.

Respectfully, y
fo

/

H. Gregory Campbell
Campbell Law Firm, P.A.
HGC/jkf
enclosures
Robinson Nursing & Rehab v. Andrew Phillips
Extension of Time for Submitting Response
Date: April 6, 2020

Page 2 of 2

 

cc: Mr. William F. Northrip
Mr. Philip S. Goldberg
Mr. A. Bradley Bodamer
Ms. Kynda Almefty
Mr. Kirkman T. Dougherty
Ms. Stephanie I. Randall
Ms. Carol N. Ricketts
Mr. Brian D. Reddick

by first class mail and email
